No. 20-826

In the Supreme Court of the United States
————
MIKE BROWN,
Acting Warden
v.

Petitioner,

ERVINE DAVENPORT,
————

Respondent.

On Writ of Certiorari to the
United States Court of Appeals
for the Sixth Circuit
————
BRIEF FOR THE STATES OF ARKANSAS,
ALABAMA, ALASKA, ARIZONA, GEORGIA,
INDIANA, IOWA, KANSAS, KENTUCKY,
LOUISIANA, MISSISSIPPI, MISSOURI,
MONTANA, NEBRASKA, NEVADA,
OHIO, OKLAHOMA, PENNSYLVANIA,
SOUTH CAROLINA, SOUTH DAKOTA,
TENNESSEE, TEXAS, AND UTAH
AS AMICI CURIAE
IN SUPPORT OF PETITIONER
————

OFFICE OF THE ARKANSAS
ATTORNEY GENERAL
323 Center Street
Suite 200
Little Rock, AR 72201
(501) 682-6302
nicholas.bronni@
arkansasag.gov

LESLIE RUTLEDGE
Arkansas Attorney General
NICHOLAS J. BRONNI
Solicitor General
Counsel of Record
VINCENT M. WAGNER
Deputy Solicitor General
ASHER L. STEINBERG
Assistant Solicitor General

Counsel for Amici Curiae
[Additional Counsel Listed after Signature Page]
WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D.C. 20002

TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES ................................

iii

INTERESTS OF AMICI CURIAE ......................

1

SUMMARY OF THE ARGUMENT ....................

1

ARGUMENT ........................................................

3

I. Finding prejudice under Brecht does not
ensure that a state court’s harmlessness
determination is unreasonable under
AEDPA because Brecht allows courts to
consult a broader universe of materials. .

3

A. Brecht and AEDPA/Chapman look to
different sets of legal materials. .........

5

B. The differences in applicable legal
materials can lead to different
results. .................................................

7

1. Extraneous evidence. .....................

8

2. Presumptions of prejudice. ............

12

3. New arguments. .............................

14

II. Reasonable disagreements can be large
as well as small, so finding prejudice
under Brecht does not ensure that a
state court’s harmlessness determination
under Chapman is unreasonable. ............

16

III. Determining whether a state court’s
harmlessness determination is unreasonable requires actually considering the
state court’s rationale. ..............................

22

(i)

ii
TABLE OF CONTENTS—Continued
Page
IV. If the Court has any doubt about whether
the Sixth Circuit’s rule is correct, the
Court should reject its rule.......................

25

CONCLUSION ....................................................

28

iii
TABLE OF AUTHORITIES
CASES

Page(s)

Ayala v. Wong,
756 F.3d 656 (9th Cir. 2014) .....................

27

Brecht v. Abrahamson,
507 U.S. 619 (1993) ..................................passim
Cavazos v. Smith,
565 U.S. 1 (2011) (per curiam) ........... 18, 19, 20
Chapman v. California,
386 U.S. 18 (1967) ....................................passim
Cullen v. Pinholster,
563 U.S. 170 (2011) ...................................

6

Davis v. Ayala,
576 U.S. 257 (2015) ................................... 3, 4, 5
Deck v. Missouri,
544 U.S. 622 (2005) ............................. 12, 13, 14
Fry v. Pliler,
551 U.S. 112 (2007) ...................................

6, 9

Harrington v. Richter,
562 U.S. 86 (2011) ............................... 16, 23, 24
Holbrook v. Flynn,
475 U.S. 560 (1986) ................. 10, 11, 12, 21, 25
Jackson v. Virginia,
443 U.S. 307 (1979) ...................................

18

Kotteakos v. United States,
328 U.S. 750 (1946) ................................... 8, 21
Lockyer v. Andrade,
538 U.S. 63 (2003) .....................................

23

iv
TABLE OF AUTHORITIES—Continued
Page(s)
Marshall v. Rodgers,
569 U.S. 58 (2013) (per curiam) ................... 6, 9
Mays v. Hines,
141 S. Ct. 1145 (2021) (per curiam) .........

24

Metrish v. Lancaster,
569 U.S. 351 (2013) ...................................

11

Morrison v. Olson,
487 U.S. 654 (1988) ...................................

27

O’Neal v. McAnich,
513 U.S. 432 (1995) ................................... 4, 20
Porter v. McCollum,
558 U.S. 30 (2009) (per curiam) ...............

24

Premo v. Moore,
562 U.S. 115 (2011) ...................................

13

Renico v. Lett,
559 U.S. 766 (2010) ...................................

19

Rhoden v. Rowland,
172 F.3d 633 (9th Cir. 1999) ..................... 12, 14
Rompilla v. Beard,
545 U.S. 374 (2005) ...................................

24

Ruimveld v. Birkett,
404 F.3d 1006 (6th Cir. 2005) ............... 9, 12, 14
Sexton v. Beaudreaux,
138 S. Ct. 2555 (2018) (per curiam) ......... 6, 15
Sullivan v. Louisiana,
508 U.S. 275 (1993) ...................................

8

v
TABLE OF AUTHORITIES—Continued
Page(s)
United States v. Dominguez Benitez,
542 U.S. 74 (2004) .....................................

21

White v. Woodall,
572 U.S. 415 (2014) ................................... 6, 12
Wiggins v. Smith,
539 U.S. 510 (2003) ...................................

24

Williams v. Taylor,
529 U.S. 362 (2000) ..................................passim
STATUTES
28 U.S.C. 2254 ..............................................

6

28 U.S.C. 2254(b)(1) .....................................

7

28 U.S.C. 2254(d)..........................................

6

28 U.S.C. 2254(d)(1) .....................................

5, 6

28 U.S.C. 2254(e)(2)......................................

7

OTHER AUTHORITIES
Ludwig Wittgenstein, On Certainty (1969) .. 23, 24

INTERESTS OF AMICI CURIAE
Amici are the States of Arkansas, Alabama,
Alaska, Arizona, Georgia, Indiana, Iowa, Kansas,
Kentucky, Louisiana, Mississippi, Missouri, Montana,
Nebraska, Nevada, Ohio, Oklahoma, Pennsylvania,
South Carolina, South Dakota, Tennessee, Texas, and
Utah. As States, each defends habeas petitions in
federal court and has an interest in ensuring that
state-court judgments are accorded appropriate deference under Antiterrorism and Effective Death Penalty
Act of 1996 (AEDPA). The decision below, uniquely in
lower-court habeas jurisprudence, holds that federal
courts may refuse to deferentially review state-court
decisions on a particular issue, harmless error, so long
as on de novo review, a federal court finds prejudice
under a more demanding standard than the one state
courts are required to apply. Amici States do not
believe de novo review of prejudice, even under a
higher standard than that applicable in state court,
suffices to ensure States the deference their courts’
decisions are owed.
SUMMARY OF THE ARGUMENT
Below, the Sixth Circuit held that if a habeas court
has grave doubt about whether an error caused prejudice under Brecht, it’s necessarily unreasonable under
AEDPA for a state court to have concluded beyond a
reasonable doubt that the error was harmless. For
multiple reasons, that is wrong. But even if the Court
is inclined to think it is right, it should reverse the
Sixth Circuit and require courts to demonstrate that
AEDPA has been satisfied before granting relief.
I. The Sixth Circuit’s rule rests on the proposition
that a state court’s assessment of prejudice can only
differ so much from a habeas court’s before it becomes

2
unreasonable under AEDPA. If Brecht and AEDPA
review of state-court decisions applied the same law,
that argument would have surface appeal—though
nothing more. But in reality, Brecht analysis is
informed by a large body of law that federal courts
can’t consider when addressing reasonableness under
AEDPA. And those materials can determine outcomes, whether by instructing courts on what evidence
of prejudice they can consider, or providing presumptions and rules of thumb for assessing the likely effects
of certain errors. So however broad reasonable legal
disagreements can be in the abstract, substantial
reasonable disagreements here are entirely possible.
II. Even if courts only considered this Court’s
holdings when applying Brecht, finding grave doubt
about prejudice de novo would not mean a state court’s
harmlessness determination was necessarily unreasonable. The Sixth Circuit’s rule presumes that the
gap between grave doubt and no reasonable doubt is
simply too great a gap for reasonable disagreement to
bridge. But no rule of law or logic says that reasonable
minds can only differ by small margins. This Court’s
precedent on sufficiency-of-the-evidence review shows
just the opposite; a court can have grave doubts about
a defendant’s guilt, yet conclude a reasonable jury
could find it beyond a reasonable doubt. Reasonable
disagreements of this magnitude are possible because
a reviewing court will not always be certain its own
view is correct; the weaker its confidence in its own
view, the wider range of differing views it will deem
reasonable. And prejudice determinations, in particular, are an area where it is especially difficult to make
confident judgments.
III. Even confident prejudice determinations under
Brecht do not ensure a state court’s harmlessness

3
determination is unreasonable. Rather, the only way
to really determine whether a state court’s reasoning
is reasonable is to actually review it. Even if a court
feels certain grave doubt about prejudice is warranted,
that certainty may be unearned. Until a court has
demonstrated that reasonable jurists could not accept
the state court’s reasoning for finding harmlessness,
it cannot be certain its own assessment of prejudice
is correct.
IV. Even if the Court is inclined to conclude that
finding prejudice under Brecht means that findings of
harmlessness beyond a reasonable doubt are unreasonable, the Court should still require lower courts
to review state-court harmlessness determinations
under AEDPA before granting relief. If the Sixth
Circuit is correct, requiring lower courts to apply
AEDPA will not result in any errant denials of relief;
it will merely confirm the Sixth Circuit’s rule. But if
there is any risk the Sixth Circuit’s equation between
Brecht and AEDPA will fail in some cases, dispensing
with AEDPA review risks errant grants of relief.
ARGUMENT
I. Finding prejudice under Brecht does not
ensure that a state court’s harmlessness
determination is unreasonable under AEDPA
because Brecht allows courts to consult a
broader universe of materials.
When a habeas petitioner persuades a federal court
that a constitutional error occurred in his state-court
trial, this Court has held he must surmount two
distinct harmless-error hurdles before the court may
grant him relief. See Davis v. Ayala, 576 U.S. 257,
267-70 (2015). First, he must show “actual prejudice”
under Brecht v. Abrahamson, 507 U.S. 619 (1993). See

4
Ayala, 576 U.S. at 267. Under that uniquely federal
standard, a court may only grant relief if it has at least
“grave doubt about whether a trial error” affected the
trial’s outcome. O’Neal v. McAnich, 513 U.S. 432, 436
(1995). That is, at a minimum, the court must be in
“equipoise as to the harmlessness of the error.” Id. at
435. Second, if the state courts found an error harmless, under AEDPA, the petitioner must demonstrate
that their determination was unreasonable. See
Ayala, 576 U.S. at 269.
The Sixth Circuit purported to honor these two
distinct tests. Yet it held that if a court finds the first
is satisfied, a court need not apply the second because
that finding “necessarily” satisfies the second as well.
Pet. App. 17a. Its reasoning went as follows. In order
for a state court to find a constitutional error harmless
on direct review, it must conclude the error was harmless beyond a reasonable doubt. See Chapman v.
California, 386 U.S. 18, 24 (1967). It is “significantly
harder,” the Sixth Circuit observed, for a habeas
petitioner to satisfy Brecht than Chapman—“[s]o
much so,” it believed, that if a court finds an error
prejudicial under Brecht, a determination that the
same error is harmless under Chapman is “necessarily
objectively unreasonable.” Pet. App. 17a.
If Chapman, as reviewed under AEDPA, and Brecht
were simply more or less stringent versions of the
same basic test, the Sixth Circuit’s reasoning would
have a superficial appeal, though it would still fail, see
infra §§ II-III. But Brecht is not simply a toughenedup version of AEDPA/Chapman. Quite the contrary,
they apply different considerations and materials.

5
A. Brecht and AEDPA/Chapman
different sets of legal materials.

look

to

Asking “different questions . . . sometimes demand[s]
different answers,” Pet. App. 137a (Thapar, J., dissenting from the denial of rehearing en banc), and the
questions Brecht and AEDPA/Chapman ask differ
immensely. The two don’t merely depart in how great
a likelihood of prejudice they require a habeas petitioner to show. Rather, they are informed by different
sets of legal and, potentially, factual materials.
Under Brecht, a court may consider a broader array
of case law than it may under AEDPA. It might
in certain narrow circumstances also consider new
arguments not squarely raised in state court that an
error was prejudicial. And in some limited circumstances, it might even potentially consider new evidence. By contrast, under AEDPA, a habeas petitioner
attempting to show a state court’s Chapman determination was unreasonable can only rely on a minute
fraction of those materials: holdings of this Court
extant when the state court made its decision, facts in
the state-court record, and arguments the petitioner
previously made. Nothing more. And given the two
tests’ diverging inputs, it is entirely possible that they
could produce different outputs.
First take AEDPA/Chapman. A federal habeas
court’s review of a state court’s harmlessness determination is confined to whether that determination
“was contrary to, or involved an unreasonable application of, clearly established Federal law, as determined
by the Supreme Court of the United States.” 28 U.S.C.
2254(d)(1). Only if it was may a court grant relief. Id.
That “precondition to the grant of habeas relief,”
Ayala, 576 U.S. at 268, limits the universe of law, fact

6
and argument a habeas court could consider were it
applying Chapman de novo to a fraction of its scope.
More specifically, the law a habeas court may apply
is only “the holdings . . . of this Court’s decisions as
of the time of the relevant state-court decision.”
Williams v. Taylor, 529 U.S. 362, 412 (2000). It does
not include logical extensions of those holdings, White
v. Woodall, 572 U.S. 415, 426-27 (2014), the Court’s
dicta, Williams, 529 U.S. at 412, or circuit precedents
that “refine or sharpen a general principle of Supreme
Court jurisprudence into a specific legal rule that this
Court has not announced,” Marshall v. Rodgers, 569
U.S. 58, 64 (2013) (per curiam). AEDPA places equally
stringent limits on the evidence and arguments a
habeas court can consider. Because “review under
§ 2254(d)(1) focuses on what a state court knew and
did,” Cullen v. Pinholster, 563 U.S. 170, 182 (2011),
habeas courts cannot consider “new evidence” in deciding whether a state court’s decision was reasonable.
Id. Nor can they “consider[] arguments against the
state court’s decision that [the petitioner] never even
made” in state court. Sexton v. Beaudreaux, 138 S. Ct.
2555, 2560 (2018) (per curiam). Rather, they may only
consider “the state-court record,” Pinholster, 563 U.S.
at 182, and the petitioner’s state-court arguments.
Now take Brecht. Brecht does not govern state-court
proceedings. It only governs federal-court “collateral
review of a state-court criminal judgment under
28 U.S.C. § 2254.” Fry v. Pliler, 551 U.S. 112, 116
(2007). Because there are no state-court applications
of Brecht to review, habeas courts do not apply Brecht
“through the deferential lens of § 2254(d),” Pinholster,
563 U.S. at 190 (internal quotation marks omitted),
and all its many limits on the legal and factual
materials a court may deploy are simply inapplicable.

7
As Judge Thapar explained below, courts applying
Brecht may offer their best readings of general or
unclear standards from this Court; apply this Court’s
dicta; and follow controlling circuit precedent. Pet.
App. 129a-132a. And, as Judge Thapar also observed,
so long as a habeas petitioner has exhausted his
claims, see 28 U.S.C. 2254(b)(1), and satisfied AEDPA’s
preconditions on a habeas court’s taking new evidence,
see 28 U.S.C. 2254(e)(2), a habeas court applying
Brecht could potentially consider new evidence and
arguments that an error was prejudicial, Pet. App.
132a—though comity may counsel against its doing so.
B. The differences in applicable legal
materials can lead to different results.
These considerable differences in the toolkits courts
use when applying Brecht de novo versus reviewing a
Chapman determination under AEDPA might seem
less relevant when the question is harmless error.
What great difference, one might ask, does the
applicable law or even the petitioner’s arguments
make when a court is essentially making a predictive
judgment of fact about the chance the jury would have
reached a different verdict?
The answer is a great deal of difference. For the
law has much to say about measuring prejudice—
particularly the law made by lower courts. Courts
applying Brecht regularly mint new law on what sorts
of evidence suggest an error was harmful or harmless,
what kinds of errors create strong or weak presumptions of prejudice, how strong the state’s case for guilt
needs to be to defeat such presumptions, or simply
which fact patterns present likely cases of prejudice.
Indeed, the Sixth Circuit’s decision broke new ground
or applied circuit precedent on all of these fronts. And

8
given the deceptive complexity of harmless-error
analysis, a petitioner’s arguments for prejudice—and
thus whether a habeas court can consider new ones—
can make a great difference as well. For these reasons,
AEDPA can easily make the difference between
a winning Brecht argument and a losing AEDPA/
Chapman argument.
1. Extraneous evidence.
Perhaps the most fertile area for lower-court
lawmaking in applying Brecht or Chapman is whether
to consider extraneous evidence of the effect an error
had on a jury. Both Chapman and Brecht are actualprejudice tests. They ask whether an error was
harmless or prejudicial in fact, not whether a reasonable jury would have convicted absent the error in
theory. See Sullivan v. Louisiana, 508 U.S. 275, 279
(1993) (holding Chapman asks “whether the guilty
verdict actually rendered in this trial was surely
unattributable to the error”); Kotteakos v. United
States, 328 U.S. 750, 764 (1946) (holding that under
the test Brecht later adopted, the question is “what
effect the error had,” not whether the jury was
“right in their judgment, regardless of the error,” nor
“the impact of [the error] . . . on one’s own [mind]”).
Consequently, courts applying Brecht or Chapman
often look not just at the severity of the error and the
strength of the state’s evidence, but at things the
jury said or did that might reveal how prejudiced it
actually was. But what sorts of extraneous evidence
count, and how? This Court has never really said—
and the state and lower federal courts have stepped
into that vacuum.
One sort of extraneous evidence that lower courts
applying Brecht have sometimes found telling is the

9
length of jury deliberations. Below, the Sixth Circuit,
citing a circuit precedent where it held deliberations
of just three hours suggested a jury on the edge,
reasoned that the jury’s deliberating for six hours
“demonstrated” the “closeness of the case.” Pet. App.
32a (citing Ruimveld v. Birkett, 404 F.3d 1006, 1016
(6th Cir. 2005)); see also Pet. App. 37a (citing Ninth
Circuit precedent that found hints of prejudice in ninehour deliberations).
Though the Sixth Circuit appears to be unique in
holding such brief deliberations suggest a case was
hard rather than easy, it isn’t alone in looking to
deliberations’ length. In Fry, where the jury deliberated for five weeks, 551 U.S. at 123 (Stevens, J.,
concurring in part and dissenting in part), the
petitioner argued that the deliberations’ length made
a conclusion of prejudice under Brecht inescapable.1
Brief for Petitioner at 29-31, Fry (No. 06-5247). His
basis for that argument was a lengthy string-cite to
circuit precedent. Id. at 30 & n.22. But even if some
or all of that string-cite correctly applied Brecht
or Chapman, none of it is relevant under AEDPA.
Indeed, even if there were a lower-court consensus on
the relevance of jury deliberations’ length, a court
applying AEDPA “may not canvass circuit decisions to
determine whether a particular rule of law is so widely
accepted among the Federal Circuits that it would,
if presented to this Court, be accepted as correct.”
Rodgers, 569 U.S. at 64.
Another sort of extraneous evidence that has
provoked lower-court disagreement is juror testimony.
And no case more starkly illustrates that disagreement than this one. Indeed, how much weight to give
1

The Court declined to reach the question. Id. at 120-21.

10
juror testimony was virtually the dispositive issue
below. The Michigan Court of Appeals, which issued
the last state-court decision on the merits, found the
jurors’ testimony (which the trial court below credited)
that Davenport’s shackling didn’t affect their verdict
conclusive. Pet. App. 97a-99a. Not only did the
minority of jurors who even noticed Davenport was
shackled testify that the shackling didn’t affect their
verdicts, but they also testified that they (mistakenly)
believed shackling was a routine precaution in murder
cases and not a response to Davenport’s individual
propensity for violence. Pet. App. 98a.
The Sixth Circuit, however, faced with the same
record, reached a sharply different conclusion on
prejudice by giving the juror testimony “little” (and
really no) “weight,” Pet. App. 34a, leaving only the
strength of the state’s case on premeditation and
the length of deliberations to inform its judgment.
Whether or not that decision was a correct application
of Brecht, the grounds on which it rested could not be
considered under AEDPA.
In discounting the value of the juror testimony to
zero, the Sixth Circuit relied on a paragraph of this
Court’s opinion in Holbrook v. Flynn, 475 U.S. 560
(1986). In Flynn, the Court held that the presence of
several state troopers in the spectator’s section at a
trial was not prejudicial. However, in reversing
the First Circuit’s contrary decision, the Court paused
to approve that court’s choice to discount voir dire
responses that jurors had given about how they
believed the troopers’ presence would affect their
ability to fairly evaluate the case. Id. at 570; see also
id. at 565 (describing the responses). The First Circuit
“was correct” to discount the responses, the Court said,
partly because jurors may “not necessarily be fully

11
conscious of the effect” of a courtroom practice “on
their attitude,” but “especially” because the jurors had
been “questioned at the very beginning of proceedings,” when they could “only speculate on how they
will feel after being exposed to a practice daily over the
course of a long trial.” Id. at 570. The Sixth Circuit
found the passage’s more general language controlling
on the weight to give juror testimony here. Pet. App.
34a (“[T]he Supreme Court has made clear that jurors’
subjective testimony . . . bears little weight.”).
Though perhaps a permissible source of guidance
under Brecht, that language could not have informed
the Sixth Circuit’s judgment under AEDPA for two
reasons. First, it is textbook dictum. The Court
held the troopers’ presence was not prejudicial; that
bottom-line result and the Court’s reasoning in
support of that conclusion are Flynn’s holding. The
Court’s passing agreement with aspects of the lower
court’s reasoning that the troopers’ presence was
prejudicial did not contribute to the outcome and is
dictum. And under AEDPA, the Court’s dicta, particularly defendant-friendly statements in “a case in
which we rejected a [defendant’s] claim,” do not contribute to the clearly established federal law habeas
courts must exclusively apply. Metrish v. Lancaster,
569 U.S. 351, 367 (2013).
Second, if Flynn contains a holding on juror
testimony, it is only the Court’s decision to not consider the jurors’ speculation about how they would
react to practices to which they hadn’t yet been
exposed. Flynn, 475 U.S. at 570. The Sixth Circuit’s
extension of the Court’s remarks on the weight of pretrial juror testimony to the context of post-trial
testimony was, at best, an extension of the Court’s
holding to a new context. That is permissible under

12
Brecht; it is not under AEDPA. See Woodall, 572 U.S.
at 424-27.
2. Presumptions of prejudice.
As lower courts apply Brecht case by case, they will
inevitably develop certain presumptions about which
errors tend to cause prejudice and how the state can
rebut them. But when that doctrine is fed into Brecht,
habeas courts will subvert AEDPA if they use Brecht
as a proxy for AEDPA review of state-court harmlessness determinations under Chapman. This case aptly
illustrates how that subversion can occur.
After canvassing precedent on shackling and prejudice, the Sixth Circuit—though careful not to utter the
word “presumption”—derived “the proposition that
the shackling of a defendant without justification
is highly prejudicial if viewed by the jury.” Pet. App.
24a. And, it discerned the following pattern in
habeas cases presenting shackling error: the error
was deemed harmless where “the evidence of guilt is
overwhelming,” Pet. App. 23a (quoting Lakin v. Stine,
431 F.3d 959, 966 (6th Cir. 2005)), but deemed harmful in “a close case,” Pet. App. 24a (quoting Ruimveld,
404 F.3d at 1017), or even a merely “disputed” one.
Pet. App. 37a (citing Rhoden v. Rowland, 172 F.3d 633
(9th Cir. 1999)).
The Sixth Circuit purported to derive these rules
from two sources. The first was this Court’s terse
statement in Deck v. Missouri—quoting a dictum
from Flynn, a non-shackling case—that “shackling
is inherently prejudicial.” Pet. App. 24a (quoting
544 U.S. 622, 635 (2005) (internal quotation marks
omitted)). But this statement, which Judge Sutton
aptly described below as having “left matters at a
Mt. Everest-level of generality,” Pet. App. 112a, did

13
not instruct lower courts to presume shackling
is prejudicial.
Rather, the Court explained that by calling
shackling “inherently prejudicial” in Flynn, it had
meant “the practice will often have negative effects”
that cannot easily be shown. Deck, 544 U.S. at 635. It
therefore held that on direct review the state must
prove harmlessness under Chapman, rather than
requiring the defendant to demonstrate prejudice. Id.
It did not say that a court should start with any
presumption over and above the heavy burden that
Chapman already imposes on the state. So while
presuming that shackling is “highly prejudicial” and
can’t be deemed harmless absent “overwhelming”
evidence might be one way to implement Chapman
in shackling cases, such a presumption was hardly
clearly established by Deck. Cf. Premo v. Moore, 562
U.S. 115, 130 (2011) (cautioning against mistaking an
“observation” that a type of error can often have
prejudicial effects for “a per se rule of prejudice, or
something close to it”).
The other source of the Sixth Circuit’s rules of
thumb, as the citations above suggest, was a collection
of circuit cases—mostly its own—“that analyze harmlessness by assessing the weight of a shackling error
in light of the evidence presented.” Pet. App. 23a.
This “Law of Shackling,” Pet. App. 20a, coalesced
around a pattern of finding harmlessness in cases with
overwhelming evidence of guilt and prejudice when
the evidence was weaker or the jury deliberated for
longer. Pet. App. 23a-24a, 32a, 37a. Even if that were
a sensible way to apply Brecht, that circuit precedent
doesn’t control here.
Below, in an attempt to backfill, the author of the
panel’s opinion claimed the panel had merely “looked

14
to circuit precedent to ascertain whether [the Sixth
Circuit] had already held that the particular point
in issue is clearly established by Supreme Court
precedent.” Pet. App. 108a (Stranch, J., concurring in
the denial of rehearing en banc) (alterations omitted)
(quoting Rodgers, 569 U.S. at 64). But that simply
isn’t true. The cases on which the panel relied to
hold shackling is typically prejudicial in a “close”
or “disputed” case said so in the context of applying
Brecht. They didn’t hold this Court had clearly
established such a presumption in Deck or under
Chapman. See Ruimveld, 404 F.3d at 1014-18; Rhoden,
172 F.3d at 637-38. In fact, both preceded Deck, prior
to which this Court hadn’t even held that shackling
errors were reviewed under Chapman.
3. New arguments.
Finally, new arguments for prejudice can also tip
the scales in favor of a petitioner. Those arguments
couldn’t be considered under AEDPA, but in limited
circumstances, they might be considered under Brecht.
At trial, Davenport claimed self-defense, Pet. App.
5a; on appeal it appears he argued that but for his
shackles branding him as violent, the jury might have
credited that defense. But as even the Sixth Circuit
recognized, that theory of prejudice was a non-starter
given that “unrebutted expert testimony” proved his
claim of self-defense impossible. Pet. App. 27a-28a.
It wasn’t until Davenport sought habeas relief, Pet.
App. 132a (Thapar, J., dissenting from the denial
of rehearing en banc), that he developed the more
creative and somewhat counterintuitive theory the
Sixth Circuit accepted: that by “impl[ying] . . . that
court authorities consider[ed] him a danger,” shackling Davenport could have led the jury to conclude

15
Davenport committed a premeditated violent murder
rather than an impulsive one. Pet. App. 37a (alterations omitted) (quoting Deck, 544 U.S. at 633).
Whatever that theory’s merits, had the Sixth Circuit
reviewed the state courts’ Chapman determination
under AEDPA it could not have faulted the state court
for failing to conjure that creative theory on its own.
See Beaudreaux, 138 S. Ct. at 2560 (barring consideration under AEDPA of “arguments against [a] state
court’s decision that [a petitioner] never even made” in
state court). Yet that theory was the Sixth Circuit’s
sole basis for finding prejudice under Brecht.
*

*

*

For all these reasons, AEDPA’s stringent limits on
the legal materials and arguments a habeas court can
consider can sometimes cause AEDPA/Chapman and
Brecht analyses to diverge, even when taking into
account Brecht’s higher bar for showing prejudice
than Chapman’s. Relying on evidence of prejudice
that state courts could reasonably discount under
this Court’s precedents can tip the balance. So can
refusing to consider evidence of harmlessness that
state courts could reasonably consider, or following
lower-court precedent that presumes prejudice from
certain errors or on certain fact patterns. Indeed,
each of those things happened below. All are permissible under Brecht; none may be countenanced under
AEDPA. The Court should hold that satisfying Brecht
does not guarantee a petitioner has satisfied AEDPA/
Chapman and reverse.

16
II. Reasonable disagreements can be large as
well as small, so finding prejudice under
Brecht does not ensure that a state court’s
harmlessness determination under Chapman
is unreasonable.
The Sixth Circuit’s reliance under Brecht on
grounds that aren’t available under AEDPA alone
requires reversal. But reversing on that ground alone
would fail to address whether the Sixth Circuit’s
equation between Brecht and AEDPA/Chapman holds
water when habeas courts refrain from considering
AEDPA-barred materials under Brecht. And it might
give courts the perverse incentive to treat Brecht as
if it were controlled by AEDPA in order to avoid
having to actually perform deferential AEDPA review.
That approach would both generate less accurate
and informed Brecht determinations, and still fail
to give state-court harmlessness determinations the
deference AEDPA commands. For merely narrowing
the compass of law a habeas court can apply does
not exhaust AEDPA deference. To the contrary,
AEDPA requires deference to reasonable—even if
seemingly incorrect—applications of clearly established federal law.
The Court, then, should address whether even
absent the influence of AEDPA-barred materials,
Brecht and AEDPA/Chapman can diverge, and hold
they can. Having one view of prejudice does not ensure
the unreasonableness of a very different one, because
reasonable people are not confined to disagreeing
with each other by small margins. See Harrington v.
Richter, 562 U.S. 86, 102 (2011) (“[E]ven [finding] a
strong case for relief does not mean the state court’s
contrary conclusion was unreasonable.”).

17
A. Bracketing the confounding influence of AEDPAbarred materials, the Sixth Circuit’s argument for
equating Brecht prejudice with unreasonable application of Chapman goes as follows. It’s “significantly
harder” for a petitioner to prevail under Brecht than
under Chapman. The latter requires only a reasonable doubt about harmlessness, and the former a grave
doubt, or numerically, a 50% likelihood of prejudice.
Pet. App. 17a. Certainly, if a court finds prejudice
under Brecht, that court would also believe there’s
prejudice under Chapman. But the Sixth Circuit
didn’t stop there. Instead, it went one step further and
reasoned that because Brecht is “[s]o much” harder
to satisfy than Chapman, if a court finds prejudice
under Brecht, it should not only disagree with a
contrary Chapman harmlessness determination, but
deem it “necessarily objectively reasonable.” Id.
The Sixth Circuit’s reasoning presumes a peculiar
theory of reasonableness—one where a view is automatically unreasonable if it differs a great deal from
one’s own. But nothing in law or logic imposes a hard
cap on how much reasonable people can disagree.
Rather, whether we think a view is reasonable
depends on whether we believe it might be right. And
we can believe a view that differs greatly from our
own might be right if we are not very certain of our
own views.
B. Indeed, the possibility of reasonable disagreements as great as those the Sixth Circuit claimed were
impossible is already well-established in the law.
Sufficiency-of-the-evidence review, for instance, aptly
illustrates how substantial reasonable disagreements
can occur. Sufficiency review is, analytically, almost
identical to AEDPA review of a Chapman determination. In both, courts ask whether any rational deci-

18
sionmaker could have made a finding—there, guilt,
under AEDPA/Chapman, harmlessness—beyond a
reasonable doubt.2 See Jackson v. Virginia, 443 U.S.
307, 319 (1979). If the Sixth Circuit’s logic were valid,
a reviewing court that had grave doubt a defendant
was innocent would be compelled to find a verdict of
guilt beyond a reasonable doubt unreasonable; a court
that reached such a conclusion de novo wouldn’t even
need to do sufficiency-of-the-evidence review.
Yet just the opposite is the law. When a reviewing
court finds substantial evidence in favor of both
innocence and guilt, that is precisely when this Court’s
precedent teaches rational juries could find guilt
beyond a reasonable doubt. Cavazos v. Smith is
a classic example. 565 U.S. 1 (2011) (per curiam).
There, an infant died from unclear causes. Three
prosecution experts testified he died from shaken baby
syndrome; two defense experts testified he did not. Id.
at 3-5. The prosecution experts conceded many of the
telltale signs of shaken baby syndrome were absent,
id. at 4, but defense experts conceded that shaken
2

Davenport may respond that sufficiency review is inapposite
because sufficiency review and Chapman are dissimilar. See Pet.
App. 33a (noting the differences between the two). And it is true
that sufficiency review and Chapman differ in key respects; one
asks whether a reasonable jury could have found guilt beyond a
reasonable doubt, while the other asks whether any reasonable
jury would absent an error. But sufficiency review is not
dissimilar from AEDPA review of a Chapman determination—
the analogy drawn here—nor is Chapman dissimilar from the
underlying finding of guilt a court reviews under Jackson.
A court applying Chapman, like a jury, must make a finding
beyond a reasonable doubt. AEDPA review of that determination, precisely like sufficiency review of a guilty verdict, then asks
whether any reasonable jurist could have made that beyond-areasonable-doubt finding.

19
baby syndrome absent those signs was possible, id.
at 5. In spite of this conflicting evidence, a jury found
the infant’s grandmother guilty of shaking him to
death. Id.
Reviewing that conviction, the Court agreed with
her that “[d]oubts about whether [she was] in fact
guilty are understandable”—or in other words, reasonable. Id. at 8. Indeed, the Court’s own account of
the evidence paints a picture of an extremely close
case. But recognizing that “rational people can sometimes disagree,” id. at 2, and “that judges will sometimes encounter convictions that they believe to be
mistaken, but that they must nonetheless uphold,” id.,
the Court held that a rational jury could simply
“believe” the prosecution’s experts and discredit the
defense’s, id. at 7.
C. That reasonable disagreement can span the
distance between grave doubt and no doubt also makes
logical sense. Under AEDPA, at a minimum a state
court’s “interpretation of the trial record” is reasonable
if it is “possible”—that is, possibly correct. Renico
v. Lett, 559 U.S. 766, 777 (2010). If a court has grave
doubt about whether a defendant is guilty or suffered
prejudice, it doesn’t necessarily follow that it’s
impossible to find guilt or harmlessness beyond a
reasonable doubt. Or put in numerical terms, if a
court believes the chances a defendant is guilty or
didn’t suffer prejudice are 50/50, it doesn’t necessarily
follow that it’s impossible the chances are more like
90/10. Rather, how possible that is will depend on how
sure the court is of its own view.
To see why, consider again sufficiency-of-theevidence review. Suppose, for example, that overwhelming evidence shows one of two identical twins
committed a crime, but none shows which did it. If

20
one twin were convicted, a court would rightly say
their conviction was irrational. But that isn’t merely
because the court would have grave doubt about his
guilt; it’s because a court faced with those facts would
be certain grave doubt was the only rational response
to the evidence. Compare that scenario with Cavazos.
There, a court could plausibly reason that with
two sets of experts giving conflicting testimony, the
chances the defendant was guilty were just 50/50. But
a court couldn’t be remotely confident those were
the chances; there, the court’s assessment would only
reflect its deep uncertainty, not its certitude that
grave doubt was warranted. And as this Court did in
Cavazos, it would have to allow that reasonable people
could credit the prosecution’s experts and find the odds
of guilt much greater.
Findings of prejudice under Brecht are far more
likely to look like Cavazos than the case of the twins.
To find prejudice under Brecht, a court must be in at
least “grave doubt about the likely effect of an error on
the jury’s verdict.” O’Neal, 513 U.S. at 435. The Court
glossed grave doubt in O’Neal as a state of bafflement;
“in the judge’s mind, the matter [must be] so evenly
balanced that he feels himself in virtual equipoise,”
id., and “the judge’s conscientious answer” to whether
an error affected the outcome must be “It is extremely
difficult to say,” id. at 442. Such a state of mind does
not cohabit easily with confident rejections of others’
views. Yet below, grave doubt was all the Sixth Circuit
found. Indeed, at the end of its lengthy de novo review,
all it could say is that Michigan had “failed to carry its
burden to show that the shackles did not” affect the
outcome. Pet. App. 38a (emphasis added).
Of course, not every finding of prejudice under
Brecht will rest on grave doubt. In theory, a court

21
could believe that the chances an error was harmful
are well above 50/50 (though Brecht never requires a
court to make such an estimate). But even then, the
nature of the prejudice inquiry will often make it
difficult for courts to feel certain that differing views
are incorrect. By its terms, harmless-error review
requires courts to engage in “the hypothesizing of
events that never in fact occurred”—how a jury
would have behaved if some error hadn’t happened.
United States v. Dominguez Benitez, 542 U.S. 74, 87
(2004) (Scalia, J., concurring in the judgment). “Such
an enterprise is not factfinding, but closer to divination.” Id.
Not only is gauging prejudice a difficult task in
theory, it is also difficult in practice because it rests on
a series of hard individual judgments, each fraught
with room for error. First, a court must assess the
strength of the state’s case, keeping in mind that the
jury that heard it convicted—a task that alone can
provoke a wide range of reasonable disagreement, as
sufficiency review illustrates.
Second, a court must attempt to estimate “the
impact of the [error] on the minds of other men,”
Kotteakos, 328 U.S. at 764, even though the jurors
themselves may “not necessarily be fully conscious of
the effect” it had on them. Flynn, 475 U.S. at 570.
When an error, like shackling, tends to affect the jury’s
“attitude” rather than their view of the facts, id., that
task will be particularly difficult.
Third, a court will often have to grapple with extraneous evidence. For example, in this case, what effect
should it have on one’s estimate of prejudice that seven
jurors who didn’t see Davenport’s shackles voted to
convict? What does it suggest that the jury deliberated
for six hours? Does the answer change if one thinks

22
the issues before the jury were “simple”? Pet. App.
32a. Can the jurors be relied upon to accurately gauge
the effect Davenport’s shackles had on them, and how
much does it matter that the one judge who heard
their testimony found it credible? Whatever judgment
a court reaches at the conclusion of this uncertaintyladen analysis is not likely to be especially confident,
and should typically allow for a wide range of differing views.
*

*

*

Even setting aside the confounding influence of
potentially applying different law, a court that finds
actual prejudice under Brecht is not logically compelled to reject as unreasonable a harmlessness determination under Chapman. Though Brecht is significantly harder to satisfy than Chapman, no rule of
logic says that reasonable jurists cannot disagree by
significant margins. Rather, a court can believe the
chances of prejudice are substantial and still find a
Chapman harmlessness determination reasonable if it
is not very sure of its own view. And both Brecht’s
grave-doubt threshold, and the nature of the prejudice
inquiry, mean that will often be the case. The Court
should reverse.
III. Determining whether a state court’s harmlessness determination is unreasonable
requires actually considering the state
court’s rationale.
Last, even if a court forms a “firm conviction,”
Williams, 529 U.S. at 389 (opinion of Stevens, J.), not
just a tentative guess, that an error caused actual
prejudice under Brecht, and even if it avoids relying
on any AEDPA-barred materials in reaching that
conclusion, a court still must perform AEDPA review

23
of a state court’s harmlessness determination before
granting relief. For this Court has held that forming
a firm conviction a state court erred under de novo
review is no substitute for deferentially reviewing a
state court’s reasoning.
A. This Court has held a habeas court cannot treat
AEDPA deference “as a test of its confidence in the
result it would reach under de novo review”; reasoning
that because one has “little doubt that [a] claim has
merit . . . the state court must have been unreasonable
in rejecting it” is not an inference AEDPA allows
federal courts to make. Richter, 562 U.S. at 102.
Indeed, it “is not enough that a federal habeas court,
in its independent review of the legal question, is left
with a firm conviction that the state court was
erroneous.” Lockyer v. Andrade, 538 U.S. 63, 75 (2003)
(internal quotation marks omitted). So even a confident assessment of prejudice under Brecht does not
suffice to dispense with review under AEDPA.
This may seem paradoxical. If a habeas court is sure
(setting aside AEDPA-barred legal materials) a state
court was wrong, how might it still conclude the state
court was arguably right? The answer is not that the
judicial mind can hold those two thoughts at once, but
that purely de novo review is an inadequate test of a
court’s certainty. To be truly certain it is right and the
state court wrong, a habeas court must review the
state court’s reasoning and explain why it’s impossible
for “fairminded jurists” to agree with it. Richter, 562
U.S. at 102.
A court that feels confident a defendant suffered
prejudice may struggle to see how a court could reasonably say he didn’t. But as Wittgenstein explained,
even “complete conviction, the total absence of doubt,”
is only “subjective certainty.” Ludwig Wittgenstein,

24
On Certainty 27 (1969). For something to be “objectively certain,” “mistake [must] be logically excluded.”
Id. AEDPA requires the latter; a habeas court may
only grant relief where the state court’s view was
“objectively unreasonable,” not just when it appears to
be. Williams, 529 U.S. at 409. The only way for a court
to assure itself of that—and to be sure that it’s not the
one in error—is to review the state court’s reasoning.
“After all, there is no way to hold that a decision was
‘lacking in justification’ without identifying—let alone
rebutting—all of the justifications.” Mays v. Hines,
141 S. Ct. 1145, 1149 (2021) (per curiam). Failing to
do so runs the risk of “overlook[ing] arguments that
would otherwise justify the state court’s result”—or
that at least are reasonable, if not correct. Richter, 562
U.S. at 102.
The necessity for federal courts to review state
courts’ reasoning before declaring their judgments
unreasonable is a mainstay of this Court’s AEDPA
jurisprudence. From the very beginning, even Justices
who believed that AEDPA permitted independent
review conceded that AEDPA mandated “federal
judges to attend with the utmost care to state-court
decisions, including all of the reasons supporting their
decisions, before” granting relief. Williams, 529 U.S.
at 386 (opinion of Stevens, J.). And this Court has
never granted relief under AEDPA without reviewing
a state court’s reasoning and explaining why it was
unreasonable. See Porter v. McCollum, 558 U.S. 30,
42-44 (2009) (per curiam); Rompilla v. Beard, 545 U.S.
374, 388-90 (2005); Wiggins v. Smith, 539 U.S. 510,
527-29 (2003); Williams, 529 U.S. at 391-98. Indeed,
the Court has never simply stopped at its own review
of a claim, even where its own review revealed
compelling reasons for granting relief.

25
B. Davenport doesn’t dispute that before deeming a
state court’s harmlessness determination unreasonable, a habeas court must consider the state court’s
reasons for finding harmlessness, albeit if only when
applying Brecht. He claims, however, that the Sixth
Circuit did so. BIO 30. Of course, what the Sixth
Circuit happened to do in this case does not suffice to
uphold its rule for all cases, and nothing in Brecht
requires a habeas court to engage with a state court’s
Chapman reasoning.
But the problem is more fundamental than that.
Even if a habeas court considers and rejects a state
court’s Chapman reasoning under Brecht, that does
not ensure the state court’s reasoning is unreasonable.
The Sixth Circuit, for example, considered and rejected the state courts’ reliance on juror testimony.
Yet it did not consider—because under Brecht it didn’t
have to—whether reliance on that testimony was
objectively unreasonable. It merely concluded that
under its reading of Flynn, relying on the testimony
was unwise. Whether fairminded jurists could read
Flynn differently (to say nothing of whether Flynn
even contained a holding on the subject) was a
question that solely applying Brecht allowed the court
to duck.
IV. If the Court has any doubt about whether
the Sixth Circuit’s rule is correct, the Court
should reject its rule.
Suppose that despite all the reasons that Brecht
and AEDPA review of a Chapman determination can
diverge, the Court is inclined to believe that if a court
finds prejudice under Brecht, it could never find a
Chapman harmlessness determination reasonable
under AEDPA. Even if the Court concludes that is

26
probably correct, if it has any doubt about whether it
is, it should reverse. That’s because even if the Sixth
Circuit is right, requiring courts to apply AEDPA
before granting relief would never result in error;
it would merely ensure that the Sixth Circuit’s rule
isn’t mistaken. But if there is any risk that the Sixth
Circuit is wrong, allowing courts to skip applying
AEDPA risks granting relief that AEDPA prohibits.
Assume it’s the case that no court that finds
prejudice under Brecht would ever find a Chapman
harmlessness determination unreasonable. Even if
that’s true, what harm would it cause to make a
habeas court “show its work” before declaring AEDPA
satisfied? Pet. App. 50a (Readler, J., dissenting). If
the Sixth Circuit is right, applying AEDPA should
never lead to an incorrect result; courts that find
prejudice under Brecht will necessarily find prejudice
under AEDPA/Chapman and grant relief. It will
merely confirm that the Sixth Circuit’s rule is correct.
And the Sixth Circuit’s rule, however plausible as
an intuitive matter, is a rule that can use some
confirming. Nothing in its opinion shows why it is
necessarily the case that satisfying Brecht ensures
satisfaction of AEDPA/Chapman.
The only cost of the States’ rule would be requiring
habeas courts, in the exceedingly rare cases where
they both find an error under AEDPA and actual
prejudice under Brecht, to take the time to explain
why reasonable jurists could not agree with the state
courts’ harmlessness determination—assuming the
state courts have even made one. Such a requirement
would impose very little upon the federal courts’
resources, and requiring formal compliance with a
congressional precondition to granting habeas relief
before granting it does not seem much to ask.

27
On the other hand, suppose that in a small fraction
of cases where a court finds prejudice under Brecht, if
it went on to conscientiously apply AEDPA it would
find it could not say the state courts’ harmlessness
determination was unreasonable. Affirming the Sixth
Circuit’s rule would get those cases wrong. And in
each case, courts would grant habeas relief in violation
of AEDPA—without ever even applying AEDPA to
see if the relief they were granting violated it. This
Court has seen many lower-court attempts to subvert
AEDPA. But never before has it seen an outright
refusal to apply AEDPA, on the theory that independent review can somehow serve in its place.3 “[T]his
wolf comes as a wolf,” Morrison v. Olson, 487 U.S. 654,
699 (1988) (Scalia, J., dissenting), and this Court
should not sanction it.

3

There is one exception. In Ayala, the Ninth Circuit, just like
the Sixth Circuit here, claimed that by “apply[ing] the Brecht test
without regard for the state court’s harmlessness determination”
and finding prejudice, Ayala v. Wong, 756 F.3d 656, 674 (9th
Cir. 2014), it “necessarily determine[d]” the state courts’ harmlessness determination “to be an unreasonable application of
Chapman,” id. at 674 n.13. This Court reversed, holding the
Ninth Circuit was incorrect in believing the “state court’s harmlessness determination has no significance.” Ayala, 576 U.S.
at 268.

28
CONCLUSION
The judgment of the Sixth Circuit should be
reversed.
Respectfully submitted,

OFFICE OF THE ARKANSAS
ATTORNEY GENERAL
323 Center Street
Suite 200
Little Rock, AR 72201
(501) 682-6302
nicholas.bronni@
arkansasag.gov

LESLIE RUTLEDGE
Arkansas Attorney General
NICHOLAS J. BRONNI
Solicitor General
Counsel of Record
VINCENT M. WAGNER
Deputy Solicitor General
ASHER L. STEINBERG
Assistant Solicitor General

June 17, 2021
[Additional Counsel Listed on Following Page]

29
STEVE MARSHALL
Alabama Attorney
General

AUSTIN KNUDSEN
Montana Attorney
General

TREG TAYLOR
Alaska Attorney
General

DOUGLAS J. PETERSON
Nebraska Attorney
General

MARK BRNOVICH
Arizona Attorney
General

AARON FORD
Nevada Attorney
General

CHRISTOPHER M. CARR
Georgia Attorney
General

DAVE YOST
Ohio Attorney
General

TODD ROKITA
Indiana Attorney
General

DAWN CASH
Oklahoma Acting Attorney
General

TOM MILLER
Iowa Attorney
General

JOSH SHAPIRO
Pennsylvania Attorney
General

DEREK SCHMIDT
Kansas Attorney
General

ALAN WILSON
South Carolina Attorney
General

DANIEL CAMERON
Kentucky Attorney
General

JASON RAVNSBORG
South Dakota Attorney
General

JEFF LANDRY
Louisiana Attorney
General

HERBERT H. SLATERY III
Tennessee Attorney
General

LYNN FITCH
Mississippi Attorney
General

KEN PAXTON
Texas Attorney
General

ERIC S. SCHMITT
Missouri Attorney
General

SEAN D. REYES
Utah Attorney
General

